Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 PAYMENT FOR DURABLE MEDICAL
EQUIPMENT BILLED DURING SKILLED
     NURSING FACILITY STAYS




                     JUNE GIBBS BROWN
                     Inspector General

                        OCTOBER 1994
                        OEI 06-92-00860
                   EXECUTIVE                       SUMMARY

PURPOSE

To determine if incorrect Medicare payments are being made for durable medical
equipment services billed to Medicare Part B during a skilled nursing facility stay.


BACKGROUND

Federal law states that durable medical equipment (DME) may only be billed to Part B of
the Medicare program if the equipment is provided in the beneficiary’s residence.
However, the law specifies that a skilled nursing facility cannot be considered a residence.
For this reason, equipment billed to Part B during a beneficiary stay in such a facility is
incorrectly paid.

Four regional carriers, called Durable Medical Equipment Regional Carriers, now process
claims for durable medical equipment and other items covered under Part B of Medicare.
Establishing these carriers provides an opportunity to develop guidelines that address
equipment abuses or program weaknesses. Examining equipment billed during a skilled
nursing facility stay, at this time, provides an opportunity to develop a baseline for future
comparison of these carriers’ effectiveness.

For this evaluation, data were obtained from a one-percent sample from the Common
Working File database. All part B durable medical equipment services, for all
beneficiaries identified as having a skilkd nursing facility stay during 1991, were included
in the sample. An analysis of information on the 1022 items of equipment contained in
the sample, and obtained from the carrier, was completed. Similar information was
obtained from the 1992 data base, although the major focus of this report is 1991.


FINDINGS

Approximately $8.9 million in 1991 and $10.8 million in 1992 was incorrectly allowed
for durable medical equipment billed during skilled stays.

The inability of the suppliers and carriers to accurately determine the beneficiary’s
location during a skilled stay, leads to incorrectly paid equipment claims.

●      Ninety-nine percent of durable medical equipment bills, submitted by suppliers for
       patients in skilled nursing facilities, represen~ ~he location as “home” or “other. “

●      l%ere is some evidence that dl~erences exist in screening activities used by “high
       charge” and other carn”ersto detect incorrect DA4E billing.


                                               i
Most incorrect equipment billings during a skilled stay represent items prescribed for
use prior to, or after, a skilled stay. A review of certificates of medical necessity was
undertaken. This review indicated 77 percent of the items billed represented continued
billings for previously prescribed items or new prescriptions for use after discharge.

Approximately half of the patients in our sample were not discharged to their homes,
meaning incorrect payments for equipment might continue. Incorrect billing for
equipment may continue for some time after the skilled stay. This may occur due to the
patient’s receiving care in a non-residential setting after discharge.


RECOMMENDATIONS

We recommend that HCFA take action in the following areas to minimize the
opportunity for incorrect Durable Medkal Equipment payments.

Improve the place of service coding system. The HCFA could:
       ●      Utilize data from the Statistical Analysis DME regional carrier to identify
              and review suppliers who consistently use the “other” place of service
              category, and take appropriate actions based on the reviews.
       ●      Disseminate materials which indicate the limited circumstances under which
              “other” may be appropriately used to bill DME.
       ●      Educate the four new Durable Medical Equipment Regional Carriers
              (DMERCS) on the accurate use of place of service codes.
       ●      Require the new carriers to provide on-going education to the suppliers on
              the accurate use of place of service codes.
      ●       Suggest that the new carriers develop an item for inclusion in their
              database, that is transmitted to the Common Working File, to provide a
              continuing history of the patient’s location.

Improve the supplier knowledge of beneficiary loc~”on. The HCFA could:
      ●      Ensure that the four new carriers instruct suppliers of their responsibility
             for determining the beneficiary location, before billing Part B equipment.
      ●      Ensure that the DMERCS undertake sample reviews of suppliers claims and
             exchange their findings with the other DMERCS, so that all can take
             appropriate action on the supplier’s claims.

Review the Durable Medical Equipment Re@”ona.1Carn”ersprocesses. The HCFA could:
       ●     Assess the effectiveness of the new Common Working File edit of Part B
             equipment and skilled nursing facility charges, and evaluate whether
             additional edits should be developed to review all skilled stay bills, upon
             submission, for overlap with durable medical equipment billing.
       ●     Encourage the DMERCS to examine this problem. The OIG, in
             collabomtion with HCFA, may also review this area in the future to
             examine the impact of implementing the new DMERC processes.



                                                ii
AGENCY COMMENTS

We solicited and received comments from the Health Care Financing Administration
(HCFA) on our draft report.

The HCFA concurred with the intent of our three recommendations. In addition, they
suggested alternative steps that could also be taken to achieve the intent of our
recommendations. We have incorporated the suggestions proposed by HCFA in the listing
of options presented in our recommendations.

See Appendix B for the full text of the HCFA comments.




                                           ...
                                           111
                            TABLE                     OF CONTENTS

EXECUTIVE          SUMMARY                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1



INTRODUCTION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            . . . . . . . . . . .   4

 . Incorrectly Allowed DME During 1991 And 1992                              . . . . . . . . .     . . . . . . . . . .   4

 .   Supplier   And      cafiel-Knowledge             Of Beneficiary Location . . . . .          . . . . . . . . . . .   5

 .   Billings   Dufing      StiyS   For      Items   T_Jsed   Before Or After Stays . . .        . . . . . . . . . . .   8

 ● Continuation Of Incorrect Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
RECOMMENDATIONS                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ENDNOTES          . . . . . . .        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDICES            . . . . . .      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0 Al

A:   1991 Carrier Information For One-Percent Sample                          . . . . . . . . . . . . . . . . . . . Al

B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B1
                           INTRODUCTION

PURPOSE

To determine if incorrect Medicare payments are being made for durable medical
equipment (DME) services billed to Medicare Part B during a skilled nursing facility stay.


BACKGROUND

Federal law states that DME may only be billed to Part B1 of the Medicare program if
the equipment is provided in the beneficiary’s residence. However, the law specifies that
a Willed Nursing Facility cannot be considered a residence. 2 For this reason, DME
billed to Part B during a beneficiary stay in a SNF is incorrectly paid.

While DME billed during a nursing home stay is not payable, carrier rules may allow
some DME to be paid during a portion of an individual’s SNF stay. First, DME USd in
a beneficiary’s residence for a portion of a month, prior to a SNF stay, may be billed and
paid; however, the DME may not be re-billed during a Part A SNF stay.3 Secondly, an
item of DME may be billed on the day of discharge from a SNF to a “residence.”

Four regional carriers now process claims for DME, prosthetics, orthotics, and certain
other items covered under Part B of Medicare. The establishment of DME carriers
provides an opportunity to develop guidelines to address DME abuses or program
weaknesses.4 An examination of DME billed during a SNF stay, at this time, provides
an opportunity to develop a baseline for future comparison of Durable Medical Equipment
Regional Carriers’ (DMERCS) effectiveness. Corrective systems are also identified to
limit vulnerabilities found in this inspection.


SCOPE

This inspection is the frost of a series examining payment for services in nursing homes.
Subsequent reports will address other topics and include nursing home services provided
under both the Medicare and Medicaid program.


METHODOLOGY

Data for this inspection were obtained from a one-percent sample from the Common
Working File database (See Table 1). All sample beneficiaries identified as having a Part
A SNF stay during 1991 were included in the sample. All Part B DME services
commencing from the first through the last covered day of the SNF stay, which
represented 1022 items, were included for analysis. Projections can be made to the


                                              1
                                           TABLE     1


                              Part B DME Allowed During A SNF Stay
                      From The 1991One Percent Common Working File Sample

                                       HCPC Codes         Items Of                  100%
                                                                     Total 1%
           Category of DME             In Category       DME From                 Projected
                                                                      Charges
                                        For 1991         1991 CWF                 Charges

Wheel Chairs                               23               265       $16,046     $1,604,600

Wheel Chair Accessories                     8               20           $929         $92,900

Rollabout Chair                             1               13           $709         $70,900

Hospital Beds                              10               154       $18,446      $1,844,600

Bed Side Rails                              1                2              $21        $2,100

Walkers                                     6               148        $9,816        $981,600

Walker Attachments                          2                15          $563         $56,300

Canes                                       2                9           !$231        $23,100

Crutches                                    2                2              $77        $7,700

Commode Chairs/Pans                         5               83         $5,714        $571,400

Oxygen Concentrators                        9               82        $21,809      $2,180,900

Portable Gas/Oxygen    Systems              2               39         $1,861        $186,100

Nebulizers and IPPB Machines                4               46         $2,351        $235,100

Oxygen Contents                             1                1           $215         $21,500

Pressure Pads/Mattresses                    9               48         $2,841        $284,100

Heating Pads                                1                1              $69        $6,900

Traction and Bar Devices                    5               47         $2,260        $226,000

Patient Lifts                               2                14        $1,117        $111,700

Suction Pump/Home                           1                7           $550         $55,000

Continuous Airway Pressure Device           1                2           $211         $21,100

Neuromuscular Stimulator                    1                2           $191         $19,100

IV Poles                                    1                11          $263         $26,300

AmbulatoW Infusion Pump                     1                2           $332         $33,200

Home Blood Glucose Monitor                  1                3           $438         $43,800

Repair, Non-routine Service, DME
                                            2                6         $1,607        $160,700
Miscellaneous

TOTAL                                      101              1022      $88,667      $8,866,700




                                                 2
universe of Medicare beneficiaries, since all DME billed during a SNF stay were included
in the sampling frame. Similar information was obtained from the 1992 Common
Working File, although the major focus of this report is 1991.5

The information obtained from the database i.:~.uded relevant patient identifying
information, coded place of service, carrier identification, nursing home identification, the
location by State, and the patient discharge disposition at the end of the SNF stay. Part B
claims information was also collected.

Information concerning Part B claims processing for DME claims, as well as measures
taken to avoid incorrect payment of DME, was also obtained from the carriers. A copy of
the claim, certificate of medical necessity, and payment information for each piece of
billed DME contained in the 1991 database were requested from the carriers. Of the 1022
items requested, information was returned for 964 items. However, only 637 items had
useable information on certificates of medical necessity and 712 on payment disposition.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              3
FINDINGS

Approximately $8.9 Million In 1991 And $10.8 Million In 1992 Was Incorrectly
Allowed For DNIE Billed During SNF Stays.

Total incorrect payments for DME billed
                                                        DME Items Incorrectly Billed
during a SNF stay in 1991 were $88,667.                          During    A SNF   STA~
Projected to the entire SNF population,
these figures represent $8.867 million in         140,000
incorrect payments and 102,200 DME                120,000        102,200
items incorrectly billed in 1991. In 1992         100,000
the projected amount of DME incorrectly            80,000
paid during a SNF stay represented                 60,000
117,700 items at a cost of $10.790                 40,000
million. This represents a 15 percent              20,000
increase from 1991 to 1992 in the number                 n   9
of DME items incorrectly billed and                              1991              1992
allowed during a SNF stay.


Twenty-three percent of the incorrectly allowed DA4E payments were associated with co-
insurance and deductibles, represenh”ngan unnecessary burden for benejician”es.

We reviewed the payment history for 712 of the 1022 claims from 1991, to examine the
Medicare and beneficiary financial responsibility for the incorrectly allowed DME. Based
on this review, 23 percent, or $2.04 million of the incorrectly allowed DME charges,
represented deductibles and co-insurance paid by the beneficiary, other insurance
programs, or the State (in the case of some Medicaid recipients) in 1991.6 This
represents inappropriate deductible or co-insurance payments made by each beneficiary for
equipment billed during their SNF stay.


Carriers who processed claims for the larger industrial States allowed greater incorrect
payments for DME.

The carriers with the greatest amounts of incorrectly allowed   DME billed during a SNF
stay, were those that processed claims for the larger industrial States, as noted in Table 2.
These items of DME represent over half of all incorrectly allowed DME charges and
items. This simple finding may indicate that the greater volume of incorrectly billed items
increases the effort required to determine if each item of DME is billed correctly. There
are implications from this finding for the newly formed DMERC’s, since each carrier will
be responsible for a greater volume of claims, covering a larger geographical area. One
implication for the four DMERC’s is the need for some ongoing system to compare DME
billing with SNF billing during a specified time frame, as well as a system of tracking
beneficiaries admitted to a SNF, to reduce incorrect billings and payments.



                                              4
                                         TABLE 2


                  Ten Carriers Representing The Largest Charges
             And Number Of DME Items Billed During A 1991 SNF Stay
             Carner                             Jurisdiction           Total         Items of
                                                                      Charges*        DME*

 Health Care Service Corp-Med     Illinois                             $7427           75
 Part B
 Pennsylvania Blue Shield•        Pennsylvania, Delaware, New          $6990           72
                                  Jersey, D. C. Virginia, Maryland
 California Physicians Service    California                           $6900     I      84
 Transamerican Medicare           ICalifornia                        I $5433     I      71
 Nationwide Mutual Insurance      Ohio & West Virginia                 $4994            51
 Company - Medicare
 Blue Cross Blue Shield of Texas Texas                                 $4292            43
 Empire Blue Cross and Blue       New York                             $4136            41
 Shield
 Medicare Part B -Florida BCBS Florida                                 $4012            50
 Blue Cross Blue Shield of        Michigan                             $3980     I      53
 CIGNA Medicare Admin.            lTennessee & North Carolina        I $3025     I      42

* These figures represent data from the 1% Common Working File


The Inability Of The Suppliers And Carriers To Accurately Determine The
Beneficiary’s Location During A SNF Stay Leads to Incorrectly Paid DME Claims.

Ninety-nine percent of DME bills, submitted by suppliers for patients in Part A SNF stays,
represent the location as “home” or “other. “

Incorrect payments for DME were almost evenly divided between place of service codes
representing “home” (50 %), and “other” (49.2 %). Both of these codes represent an
incorrect payment, since the services were billed during a SNF stay. The remaining .8
percent of the incorrect payments were identifkd as occurring in a SNF, a nursing facility
or during End Stage Renal Disease treatment. Finally, the 1991 and 1992 data indicate
that the same number of items were coded “SNF” in each year.

Prior to September 16, 1991, there were 14 codes to indicate the place where the
Medicare service was rendered. Many of these codes, including “other,” represented
more than one possible place of service. After September 16, 1991, HCFA greatly
expanded the number of available codes to allow designation of at least 27 possible places


                                                5
of service. In addition, no code represented more than one setting. These coding changes
provided the opportunity to better represent the actual place of service and decrease the
incorrectly paid DME during a SNF stay. However, the code “99,” “other,” continued to
be listed as an option for place of service. When examining the 1991 and 1992 SNF
DME data, we found that the utilization of the code “99” or “other” declined from 49.2%
in 1991 to 22% in 1992.7 However, as noted in the first finding, the number of items
incorrectly allowed during a SNF stay increased.


Carriers policies regarding screening of DA4E claims vary.

We surveyed the 40 current Medicare Part B carriers to examine their efforts to determine
if a person receiving DME is located in a SNF. Twenty-nine of the 39 carriers answering
this question indicated they have a process to verify if the “place of service” code is
consistent with any other information on the claim, or known about the beneficiary.
However, if the place of service indicates home, many carriers do not have further edits
to determine if the information on the claim is correct. This indicates a lack of
knowledge by the supplier of the beneficiary location at the time the supplier bills,g or a
false claim submission, since the DME represented in this database was billed during an
individual’s SNF stay.

To further examine the use of the code “99,” representing “other,” carriers were also
asked for specific examples of the correct use of “other.” Six of the 40 carriers indicated
there are times when “99” would be accepted as correct; four stated “99” is accepted
when referring to a pharmacy as the point of sale or the DME supplier’s place of
business. Additionally, two accepted “99” when used to describe a retirement home, or
when used to represent the beneficiary’s home. Thirty of the carriers indicated the use of
code “99” did not reduce the ability of a carrier to pay accurately. Finally, 13 of 37
carriers said providers are using place of service “99” inappropriately.


i%ere is some evidence that dl~erences exist in screening activities used by “high charge”
and other carriers to detect incorrect DME billing.

We also compared the efforts to control incorrect DME payments of the ten carriers with
the largest DME charges9 paid during SNF stays with the remaining carriers (see
Table 3). On questions that pertained to knowledge of the location of the beneficiary
receiving DME, the “high” charge carriers always indicated fewer routine efforts to 1)
determine DME recipient location, 2) examine the consistency of the coded Place Of
Service (POS) with other information, and 3) examine bills with POS “99” for the
appropriateness of another code. The “high” charge carriers were also less likely to
believe that providers used POS “99” inappropriately, or to have undertaken any focused
review of incorrect DME payments. Additionally, these carriers were more likely to be
able to provide an example of when a DME payment would be made for a beneficiary in a
SNF. It appears that the carrier efforts, as shown in Table 3, may have an impact on
decreasing incorrectly allowed DME payments.


                                             6
                                       TABLE 3


  Comparison Of Responses By Top Ten “HIGH” Charge Carriers And All Other
carriers To Questions Regarding Efforts To Control Incorrect DME Payments
                                                          Percent of Ten   Percent of All
                                                          “High” Charge    Other Carrkrs
                                                             Carriers       Responding
                                                          Responding Yes       Yes
When a bill for DME is received and the Place Of               40%              69%
Service (POS) marked on the claim does not indicate
HVF, are efforts routinely made to determine if the
~erson receiving the DME is in a SNF?
[s any verification done when processing a DME                 66%              76%
;laim to confii    the POS coded is consistent with any
~ther information either on the claim or known about
:he beneficiary?
[f a claim for DME lists the POS as “99” (other), is           50%              66%
the POS reviewed to determine if one of the HCFA
specified POS codes should be used?
Do you believe that providers are using POS “99”               44%              47%
inappropriately?
Have you undertaken any focused review on incorrect            44%              66%
payments made for DME in the past three years?
Are there any instances you can think of where a               30%              17%
payment for an item of DME would be made even
though the beneficiary is in a SNF?
Can you provide a speciilc example(s) of when POS              10%              18%
“99” has been used appropriately for a DME claim?
 Joes the use of code “99” on claims reduce the                30%              15%
 :arrier’s ability to pay accurately?
 >oes the use of code “99” on claims reduce the                22%              32%
 :arrier’s ability to pay in a timely manner?


The HCFA hus developed a Common Working File Alert for DklE items with service dates
overlapping an inpatient admission.

In the summer of 1993, during the transition to DMERC claims payment of DME, HCFA
developed an edit for use by the Common Working File. The edit’s purpose is to alert
the DMERC to the possibility of a DME service coinciding with an inpatient admission.
While the Common Working File activates the alert, the DMERC is responsible for
reviewing the Part B claim to determine if a DME item was billed for a patient currently
receiving inpatient care. After review, the DMERC may either approve or reject the
claim for payment.


                                             7
However, there arelimitations tothe alert that has been developed. This alert dependson
a SNF or other inpatient bill being processed prior to the receipt of a Part B DME claim
by the DMERC. If a SNF bill is not processed before a DME claim is received, an alert
will not occur due to no overlapping service date. There is no reverse edit in place to
review all SNF or inpatient claims when they are received, to determine if the beneficiary
is also receiving DME. Thus, the current edit process continues to allow incorrect DME
payments for SNF patients.


                                       A COMMON WORKING FILE EDIT ALERTS
                                      DMERCS OF DME CLAIMS WHICH OVERLAP
                                             A NURSING HOME STAY
            Beneficiary ~                                                    Beneficiary A Purchases
             Enters SNF                                                       or Rents a Wheelchair




            Cl,,    m


           l-lto,




       /3
             3NF
            f)tay




         INTERMEDIARY

         Processing         of SNF
         Claim/Cost          Report



                                                Application   of Edits


                                        EDIT = DME service date overlap
                                               with an inpatient admission
                                               causes DA02 alert to DMERC




                        i
            Mo v.$ment
                                                                             i   Reject     Approve i
         of Clafm Detail
                                                                             I Claim  Claim       d
                                                                             l———————————          .




Most Incorrect DME Billings During A SNF Stay Represent Items Prescribed                                For Use
PAor To Or After A SNF Stay.

The certificates of medical necessity that we received were examined to determine whether
services billed during a SNF stay were provided in the SNF, were continued billings for
items in use before the stay, or were billed during the stay for items used after the stay.
Any of these represents an incorrect DME payment, but each indicates a different reason
for the incorrect payment.


                                                                8
To determine if any of the above mentioned conditions occurred, we reviewed the DME
claims information and certificates of medical necessity. Of the 1022 items of DME
billed during a SNF stay that were included in the 1991 one percent sample, we obtained
certificates of medical necessity from the carriers for 637; or 62% of the total number of
DME items billed. This represents $5.358 million, or 60% of the total amount of
incorrectly paid DME.




                         Certificate         Of Medical Necessity
                                       In Relation To SNF Stay

                       3507’1    292
                       300 i
                       250                           200
                       200 1               126
                       150 “
                       100                                      ~.
                        50
                          0 &mlllll                       ~–+_
                              Before    During*   Last Six Day Of     After
                                                   Days** Discharge
                  Total N = 637
                   ● Excludes last week
                   * Excludes day of discharge
                   ●




Certificates of Medical Necessity Prior To A SNF Stay

A review of the certificates of medical necessity, obtained from the carriers, showed that
292 (46 %) of the items had dates indicating they had been prescribed prior to the SNF
stay. Payments made for the items certifkl as medically necessary before entering the
SNF, and for which charges continued to be billed after entering the SNF, represent
$2.614 million, or 49 % of the incorrectly paid DME with certiilcates of medical
necessity.

It is logical to assume these items of DME were being used in the beneficiaries’ homes
prior to obtaining care in the SNF. Although DME used in the home may be paid if it
was billed for use prior to entering a SNF, even though the beneficiary resided in a SNF
for a portion of the billed month, this DME should not be rebilled during the beneficiary’s
SNF stay.




                                                    9
Certificates of Medical Necessity During a SNF Slay

Our review of the certificate of medical necessity data showed 333 of the billed DME
items were certified as medically necessary during the beneficiaries’ SNF stay. While
only 7 items had certificates on the date of discharge, 200 items had certificates of
medical necessity commencing during the last six days of the beneficiaries’ SNF stays
(excluding discharge date). This could indicate that these 200 items were prescribed for
use at the beneficiaries’ homes ~r discharge from the SNF.

The remaining 126 items may also represent DME that had been prescribed prior to
entering the SNF, for which the certificates of medical necessity were renewed during this
stay; or, these items could represent DME prescribed and used during the SNF stay.
Either situation indicates incorrectly paid DME. A random review of these 126 claims,
indicates that many of the certificates of medical necessity do not stipulate whether they
are a renewal or a new prescription. However, on the claims that provided a space to
stipulate whether this was a new or renewed certificate of medical necessity, all indicated
that this was a new certificate for the item of DME.


Approximately Half Of The Patients In Our Sample Were Not Discharged                                To Their
Homes, Meaning Incorrect Payments For DME Might Continue.


                                Patient Discharge Disposition
                                    Upon Leaving Part A SNF Stay



                         70%                                                                    ~
                                   56%.
                         60%
                         50%
                         40%
                         30%
                         20%
                         1 o%
                          o% L’           ‘0’      4’.&                          “
                                  Home Short     SNF       ICF     Other       Died    Still
                                     Term Hospital               Institution          Patient




We examined the patient disposition status to determine whether incorrect DME billings
may continue after the patient is discharged from the SNF setting. Our examination
indicated that 44 percent of the beneficiaries either died or did not return to their home
upon discharge from the SNF. Thus DME billings may not be appropriate for some time,
due to the patient’s receiving care in a setting which is not a residence. Furthermore, five
percent of the sample represented DME items billed for beneficiaries who died.




                                                          10€
RECOMMENDATIONS

Action is needed to minimize the opportunity for incorrect DME payments. The action
should address the need to reduce initial incorrect billing, as well as detect any incorrect
billing after it occurs. 10 The responsibility fo:- :.~eaction, while generally falling within
the purview of HCFA, must also include the involvement of the DMERCS and the
suppliers. The recommendations that follow pertain to 1) education on the appropriate use
of “other,” 2) broadening the responsibility for supplier knowledge of beneficiary’s
location, 3) consistent use of a Common Working File edit to review DME claims for
SNF or other inpatient activity and payment rejection, and 4) Review of DMERC
processes to reduce incorrect DME billing during a SNF stay.

We recommend that HCFA take action in the following areas to minimize the
opportunity for incorrect DME payments.

Improve the pkzce of service coding system. The HCFA could:
       ●      Utilize data from the Statistical Analysis DME regional Carrier to identify
              and review suppliers who consistently use the “other” place of service
              category, and take appropriate actions based on the reviews.
       ●      Disseminate materials which indicate the limited circumstances under which
              “other” may be appropriately used to bill DME.
       ●      Educate the DMERCS on the accurate use of place of service codes.
       ●      Require the DMERCS to provide on-going education to the suppliers on the
              accurate use of place of service codes.
       ●      Suggest that the DMERCS develop an item for inclusion in their database,
              that is transmitted to the Common Working File, to provide a continuing
              history of the patient’s location.

Improve the supplier knowledge of beneficiary locah”on. The HCFA could:
       ●     Ensure that the DMERCS instruct suppliers of their responsibility for
             determining the location of a beneficiary, before billing Part B DME.
       ●     Ensure that the DMERCS undertake sample reviews of suppliers claims and
             exchange their findings with the other DMERCS, so that all can take
             appropriate action on the supplier’s claims.

Review the DMERC processes. The HCFA could:
      ●     Assess the effectiveness of the new Common Working File edit of Part B
            DME and SNF charges, and evaluate whether additional edits should be
            developed to review all SNF bills, upon submission, for overlap with DME
            billing.
      ●     Encourage the DMERCS to examine the problem of DME billed and
            allowed during SNF stays. The OIG, in collaboration with HCFA, may
            also review this area in the future to examine the impact of implementing
            the new DMERC processes.




                                              11
OIG RESPONSE      TO AGENCY COMMENTS

We solicited and received comments from the Health Care Financing Administration
(HCFA) on our draft report.

The HCFA concurred with the intent of our three recommendations. In addition, they
suggested alternative steps that could also be taken to achieve the intent of our
recommendations. We have incorporated the suggestions proposed by HCFA in the listing
of options presented in our recommendations.

See Appendix B for the full text of the HCFA comments.




                                          12
                                   ENDNOTES
1. Nursing home services are divided into two parts: 1) typical inpatient services, such as
room and board, provided by the SNF, and 2) other services, provided by outside
suppliers and practitioners, which are not part of routine inpatient care. These two types
of services are paid for in two different ways. Skilled nursing facility services can only
be billed to Medicare when they are considered “extended care services, ” that is services
required as an extension of a prior hospital stay. These SNF services are covered by the
Hospital Insurance Program, or Part A. Part A covers basic care, as well as certain
additional services provided to a patient in a SNF for up to 100 days. The Supplementary
Medical Insurance Program, or Part B, is an optional benefit which may pay for certain
services, provided by outside suppliers, that are not included in the Part A payment.

2. Title XVIII, Section 1861(n).

3. Medicare carriers Manual Section 4105.3 states that “no payment may be made for
rental for any month throughout which the patient is in an institution which does not
qualify as his or her home...”. This statement, however, does not indicate that only the
dates of stay in a SNF should be considered. Consideration of DME payment can be
affected by a prior stay in a hospital, or other non-residence setting, and discharge to a
setting other than a residence. Such additional stays could result in the beneficiary being
in a non-residence setting for the entire month. Thus, although a SNF stay has dates
indicating that the stay began and/or ended during the middle of the month, it may still be
inappropriate to pay for DME, as the beneficiary was not in their residence for any
portion of the month due to other inpatient stays.

4. Federal Register, Vol. 57, No. 118, Thursday, June 18, 1992, rules and regulations,
pg. 27290, final rule for Medicare Program; Criteria and Standards for Evaluating
Regional Durable Medical Equipment, Prosthetics, Orthotics and Supplies (DMEPOS),

5. The database created for this report originally contained only 1991 information.
However, during the course of the inspection, the 1992 CWF one percent random sample
became available. A decision was made to include 1992 data when possible. However,
claims information for the 1991 data had been requested and obtained prior to the
availability of the 1992 database. For this reason, information pertaining to Certificates of
Medical Necessity and payments were not obtained for 1992.

6. Information was obtained for 712 of the 1022 items of DME in 1991, or 69.6% of all
incorrectly billed DME items. These claims represented $60,426.44 or 68% of all the
incorrectly paid DME dollars. If we assume that this portion of the claims is
representative of the entire sample, we can project to the Medicare population and
determine the cost allocation to Medicare and other individuals, either beneficiaries or
other insurance companies and programs. Based on the 712 claims reviewed, the
Medicare responsibility for the amount paid represented 77 percent of the incorrectly paid
DME. Based on the logic stated above, this would represent $6.827 million when
projected to the entire Medicare population. The remaining 23 percent, or $2.04 million


                                             13
of the incorrectly allowed DME charges, represented deductibles and co-insurance paid by
the beneficiary, other insurance programs, or the State (in the case of some Medicaid
recipients).

7. Although the use of “other” declined between   1991 and 1992, the use of the code for
“home” increased from 50 percent in 1991 to 77 percent in 1992. Thus, 99 percent of the
items billed during a SNF stay in 1992 continue to incorrectly represent the patient’s
location.

8. The Medicare Carriers Manual, Section 4105.3, in discussing incurred expenses for
DME, indicates, “The first month’s expense for rental is incurred on the date of delivery
of the equipment. Expenses for subsequent months are incurred on the same date of the
month. ” This language does not indicate whether suppliers are required to know the
location of the beneficiary before billing for subsequent months use of DME.

9. The carriers with the largest DME charges were also the carriers with the greatest
number of items paid during SNF stays.

10. The recovery of payments made for incorrectly allowed DME items is not discussed
in this report’s recommendation section, since the issue was examined only in the SNF
population. However, the recovery of overpayments will be addressed in a subsequent
report, when the issue is examined in the context of all nursing home settings.




                                            14
                            APPENDIX                   A

            1991 Carrier Information      For One-Percent    Sample Database
Carrier                               Jurisdiction           Total Items of DME Cost
                                                            Charges DME Per Bed Day
Blue Cross and Blue Shield Alabama                          $1,169    19       $1.53
of Alabama
Arkansas BCBS              Arkansas & Louisiana             $3,012    39       $1.87
AETNA Medicare             Arizona & Nevada                 $2,171    22       $1.93
Transamerican Medicare      California                      !$5,433   71       $3.30
California Physicians       California                      $6,900    84       $3.71
Service
BCBS of Colorado            Colorado                        $1,166     7       $9.96
The Travelers Medicare-     Connecticut                      $988     12       $2.22
CT
Medicare Part B -Florida    Florida                         $4,012    50       $2.11
BCBS
AETNA Medicare              Georgia                         $1,116    19       $1.54
AETNA Life Ins, Med.        Hawaii                            $100     2       $0.92
Claim Admin
IASD Health Services Corp Iowa                              $2,059    30       $2.52
Health Care Service Corp- Illinois                          $7,427    75       $2.91
Med Part B
AdminaStar Federal          Indiana                         $1,242    14       $2.38
BCBS of Kansas              Kansas, Nebraska &              $2,150    20       $3.15
                            West Missouri
AdminStar of Kentucky       Kentucky                          $960    10       $2.13
C & S Administrative        Massachusetts, Maine,           $2,288    25       $2.84
Services for Meal, Med.     New Hampshire &
Part B                      Vermont
BCBS of Maryland            Maryland                          $419     5       $2.97
BCBS of Michigan            Michigan                        $3,980    53       $1.89
Travelers Medicare          Minnesota                         $794     9       $1.59
Blue Cross Blue Shield of   Minnesota                           o      0         0
Minnesota
General American Life Ins   East Missouri                   $2,635    34       $2.51
co.



                                             A -1
            1991 Carrier Information       For On&Percent    Sample Database
Carrier                              Jurisdiction            Total Items of DME Cost
                                                            Charges DME Per Bed Day
The Travelers Medicare       Mississippi                    $1,358       16        $4.90
BCBS of Montana              Montana                         $313        2         $8.23
BCBS of North Dakota         North Dakota, South             $286        3         $4.40
                             Dakota & Wyoming
BCBS of Western New          Western New York,               $648        9         $1.37
York, Upstate Med. Div.      Upstate
Part B
Group Health Incorporated/   New York (Queens)                $626       7         $1.60
Medicare
Empire Blue Cross and        New York                       $4,136       41        $2.39
Blue Shield
Nationwide Mutual Ins Co     Ohio & West Virginia           $4,994       51        $2.66
- Medicare
Aetna Medicare               10klahoma & New            I     $81O I      8    I   $4.96
                              Mexico
Aetna Oregon                 Oregon                         $1,841       18        $4.05
Pennsylvania Blue Shield     Pennsylvania, Delaware,        $6,990       72        $2.41
                             New Jersey, D. C.,
                             Virginia & Maryland
Seguro De Servicios de       Puerto Rico                    $1,184       11        $4.87
Salud de PR
Blue Cross and Blue Shield Rhode Island                         o         0          0
of RI
BCBS of South Carolina       South Carolina                   $346       10        $0.98
CIGNA Medicare Admin.         Tennessee & North             $3,025       42        $1.62
                             ICarolina                  I            I         I           II
BCBS of Texas                Texas                          $4,292       43        $4.60
,BCBS of Utah                Utah                           $1,770       17        $2.83
Travelers Ins Co. Medicare   Virginia                       $1,086       17        $2.81
B, Virginia
Washington State Medicare    Washington                     $1,639       13        $3.89
part B
Wisconsin Physicians         Wisconsin                        $352        6        $2.14
Service




                                             A -2
                              APPENDIX                  B
                            AGENCY COMMENTS:
                   HEALTH CARE FINANCING ADMIMSTRATION


It should be noted that the jidl texl of lhe HCFA comments addresses two reports on
skilled nursing faciliry paymen~ issues. The comments pertaining to this report are found
on pages one ~hroughfour.




                                            B-1
